HHS/OIG, Audit -"Audit of Payments For Medicaid Services To Deceased Recipients, October 1, 1998 Through September 30, 2001 - Pennsylvania Department of Public Welfare,"(A-05-03-00032)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Payments For Medicaid Services To Deceased Recipients, October 1, 1998 Through September 30, 2001 - Pennsylvania
Department of Public Welfare," (A-05-03-00032)
March 4, 2004
Complete
Text of Report is available in PDF format (148 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the amount of Medicaid overpayments resulting from payments to providers
for medical services provided after the recipients’ death.  We found that for the period October 1, 1998 through
September 30, 2001, the Pennsylvania Department of Public Welfare did not identify all payments for medical services provided
after death.  In a statistical sample of 200 paid claims, we found 111 payments (55 percent), amounting to $19,154,
that were for services provided to Medicaid recipients after their deaths.  Based on the results of the statistical
sample, we estimate that unallowable payments of approximately $1.5 million (Federal share $800,000) were not recovered.  Although
the State agency agreed that deficiencies existed in the identification of deceased recipients and recovery of overpayments
during the audit period, they do not agree to identify and refund additional overpayments.  They believe there would
be limited success in identifying the overpayments and that the current enhancements have eliminated the reported problems.  We
believe the review for additional fee-for-service overpayments is justified and should be performed by the State agency.